Docket No.

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
OCTOBER TERM, 2020
JUAN FREDY HERNANDEZ-ZOZAYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

MOTION TO PROCEED IN FORMA PAUPERIS

PLEASE TAKE NOTICE that Petitioner, through his appointed attorneys, Hartmann
Doherty Rosa Berman & Bulbulia, LLC (by Mark A. Berman, Counsel of Record), hereby moves
before the Honorable Chief Justice and Honorable Associate Justices of the United States Supreme
Court for an order permitting him to proceed in forma pauperis.
In support of said motion, Petitioner submits that the Court of Appeals found that Petitioner
was indigent and, thus, eligible for the appointment of counsel under the Criminal Justice Act of
1964, 18 U.S.C. § 3006A. Accordingly, undersigned counsel was appointed to represent Petitioner
on appeal.

For these reasons, Petitioner’s motion for leave to proceed in forma pauperis should be
granted.

Mark A. Berman, Esq.
Counsel of Record
HARTMANN DOHERTY ROSA
BERMAN & BULBULIA, LLC
433 Hackensack Avenue, Suite 1002
Hackensack, New Jersey 07601
(201) 441-9056
mberman@hdrbb.com
Attorneys for Petitioner
Juan Fredy Hernandez-Zozaya
Dated: November 9, 2020

